<html>
<title> - ENHANCING EMPLOYEE PERFORMANCE: A HEARING ON PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 109-709]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-709
 
                    ENHANCING EMPLOYEE PERFORMANCE:
                    A HEARING ON PENDING LEGISLATION

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                 THE FEDERAL WORKFORCE AND THE DISTRICT
                        OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 29, 2006

                               __________

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                    U.S. GOVERNMENT PRINTING OFFICE

29-509 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
             Michael L. Alexander, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk


   OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                  GEORGE V. VOINOVICH, Ohio, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
NORM COLEMAN, Minnesota              CARL LEVIN, Michigan
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

                   Andrew Richardson, Staff Director
              Richard J. Kessler, Minority Staff Director
            Nanci E. Langley, Minority Deputy Staff Director
                      Emily Marthaler, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Akaka................................................     3
    Senator Lautenberg...........................................     4

                               WITNESSES
                        Thursday, June 29, 2006

Hon. Dan G. Blair, Deputy Director, Office of Personnel 
  Management.....................................................     6
Darryl Perkinson, National President, Federal Managers 
  Association, on behalf of the Government Managers Coalition....    13
Colleen M. Kelley, National President, National Treasury 
  Employees Union................................................    15
Jacqueline Simon, Public Policy Director, American Federation of 
  Government Employees...........................................    17
Patricia McGinnis, President and Chief Executive Officer, Council 
  for Excellence in Government...................................    18

                     Alphabetical List of Witnesses

Blair, Hon. Dan G.:
    Testimony....................................................     6
    Prepared statement...........................................    29
Kelley, Colleen M.:
    Testimony....................................................    15
    Prepared statement...........................................    38
McGinnis, Patricia:
    Testimony....................................................    18
    Prepared statement...........................................    62
Perkinson, Darryl:
    Testimony....................................................    13
    Prepared statement...........................................    34
Simon, Jacqueline:
    Testimony....................................................    17
    Prepared statement...........................................    44

                                APPENDIX

Questions and answers submitted for the Record from:
    Mr. Blair....................................................    68
    Mr. Perkinson................................................    76
    Ms. Kelley...................................................    79
    Ms. Simon....................................................    80
    Ms. McGinnis.................................................    82


    ENHANCING EMPLOYEE PERFORMANCE: A HEARING ON PENDING LEGISLATION

                              ----------                              


                        THURSDAY, JUNE 29, 2006

                                 U.S. Senate,      
                Oversight of Government Management,        
                        the Federal Workforce and the      
                     District of Columbia Subcommittee,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:36 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich, Akaka, and Lautenberg.

            OPENING STATEMENT OF CHAIRMAN VOINOVICH

    Senator Voinovich. Good morning. Today's hearing, 
``Enhancing Employee Performance,'' will come to order.
    The purpose of today's hearing is to examine two bills 
within the Subcommittee's jurisdiction, the Federal Workforce 
Performance Appraisal and Management Improvement Act, which I 
introduced on June 13, and the Federal Supervisor Training Act, 
introduced by Senator Akaka on Tuesday. Today's hearing 
initiates the public discussion on these two bills.
    I welcome the legislation that you introduced, Senator 
Akaka.
    Senator Akaka. Thank you.
    Senator Voinovich. Hopefully, the two of us will be able to 
work on it and get something done together.
    Senator Akaka. I enjoy working with you and look forward to 
addressing these issues together.
    Senator Voinovich. Thanks. I am pleased that today's 
witnesses include individuals who have testified before this 
Subcommittee on many occasions. Dan Blair said this is OPM week 
here in this Committee. I welcome you back. During my time in 
the Senate, I have worked closely with all of you to enact 
numerous reforms, including the Federal Workforce Flexibility 
Act of 2004, and I am confident we can continue that tradition.
    As I said, today's hearing is the beginning of the process 
to consider these two bills. I look forward to listening to the 
views of all interested parties--the Administration, employee 
organizations, unions, the agencies that have had to implement 
these proposals, and those in the non-profit, good government 
sector.
    I understand there will be comments, recommendations, and 
concerns about the content of these bills. I welcome those 
comments. I believe engaging in this constructive dialogue will 
enable us to find a way to make continued improvements to the 
environment in which our dedicated Federal employees work.
    As the Comptroller General stated during this 
Subcommittee's hearing on Tuesday, overall throughout the 
government, performance management systems are, and this is his 
words, ``abysmal.'' Abysmal. I do not believe it is fair to the 
hard-working Federal employees of this country to subject them 
to such poor systems.
    The purpose of my legislation is to improve the performance 
appraisal process. The legislation Senator Akaka and I have 
introduced would help accomplish this goal by requiring that 
Federal employees annually receive a written performance 
appraisal. Current law only requires periodic appraisals of job 
performance.
    This legislation would require that an individual 
performance appraisal be aligned with the agency's strategic 
goals and be developed with the employee. The performance 
appraisal systems would make meaningful distinctions among 
employee performance, which means no more pass-fail systems. 
None of these requirements currently exist in the statute. The 
legislation, then, would require agencies to use this 
information in making personnel decisions.
    I believe the sections of the bill that may generate 
concern among some unions are those that would prevent an 
employee from receiving an annual pay adjustment or within-
grade increase if that employee has not earned a successful 
performance appraisal. I support pay-for-performance. I know 
this section of the bill would go a long way towards addressing 
a concern identified in the 2004 Federal Human Capital Survey 
that employees do not believe differences in performance are 
recognized in a meaningful way. In that survey, only 29 percent 
of the employees believed differences were recognized.
    However, before an agency would even reach the point where 
an under-performing employee would be denied a pay increase, 
the agency would have to work with the Office of Personnel 
Management to develop and refine its performance appraisal 
system. Employees would then have one year under the 
performance appraisal system to understand how it would be used 
to make pay decisions.
    The bottom line is, we are not going to let any agency 
implement pay-for-performance unless we know they are prepared 
to do it. Pay decisions would not be arbitrary or capricious. 
Managers would be required to receive appropriate training to 
judge the performance of their subordinates, make expectations 
clear to employees, and give constructive feedback. This would 
not happen overnight, but this training is essential to improve 
overall government performance.
    Furthermore, I would like to note that many people were 
concerned, including some here today, that when Congress 
authorized new personnel systems for the Departments of 
Homeland Security and Defense, that these new systems would 
quickly be implemented with minimal planning. I was committed 
to making sure that these systems were implemented well, and 
not simply fast. In fact, I went over to the Pentagon in March 
2004 and met with Paul Wolfowitz and Secretary of the Navy 
Gordon England and urged them to slow down the implementation 
of the National Security Personnel System. They did so.
    Senator Akaka and I held a hearing this past April on NSPS. 
DOD had just begun implementation for the first 11,000 
employees. Again, I went to the Pentagon in March 2004, and 
they are starting to implement it this year; 2 years later. I 
believe, at least I think Senator Akaka and I were impressed, 
that they were doing it in a thoughtful, careful manner. The 
point is, it can be done well within the Federal Government.
    The robust performance appraisal system, as required in my 
bill, would not be arbitrary and capricious. I believe most 
employees want to know that their supervisor is paying 
attention. They want to know where they stand and how they are 
doing on their jobs. Employees need to discuss, with their 
managers, their strengths and weaknesses and receive feedback 
so they can improve their skills and grow professionally.
    Finally, the bill would authorize pay-for-performance for 
individuals hired as senior level or senior technical experts, 
consistent with the statute for the Senior Executive Service.
    I now yield to my good friend Senator Akaka for his opening 
statement. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this very important hearing today on our respective 
bills. You and I know that strong employee performance 
translates into improved agency performance, which is why the 
measures we have introduced deserve attention. We both want to 
make the Federal Government an employer of choice, and I 
commend you, Mr. Chairman, for your continuance and strong 
leadership, of this effort.
    Nothing is more important to the success of Federal 
programs than how the Federal Government hires, fires, 
compensates, and evaluates its employees. To be effective, 
government programs and services depend on well-trained 
employees and skilled managers. And yet, because supervisor 
training is left to the discretion of the individual agencies, 
this training is often inconsistent and its availability is 
many times plagued by inadequate agency resources. Meaningful 
training matters and it should not be a discretionary option 
for agencies.
    Federal workers deal with a broad and complex range of 
issues affecting our Nation and the world. They understand that 
well-trained managers empower them, which in turn improves 
programs and saves taxpayers money. Training also strengthens 
communications skills, ensures that employees have a clear 
understanding of their roles and responsibilities, and promotes 
stronger manager-employee relationships.
    That is why I introduced the Federal Supervisor Training 
Act. My bill will bridge this training gap that exists now and 
help ensure that Federal managers have the necessary skills to 
manage and meet agency missions.
    The legislation has three major training components. First, 
the bill will require that new supervisors receive training in 
their initial 12 months on the job, with mandatory retraining 
every 3 years on how to work with employees to develop 
performance expectations and evaluate employees. Current 
managers will have 3 years to obtain their initial training.
    Second, the bill requires mentoring for new supervisors and 
training on how to mentor employees.
    Third, the measure requires training on the laws governing, 
and the procedures for enforcing, whistleblower and anti-
discrimination rights.
    Agencies will also be required to set standards that 
supervisors should meet in order to: Manage employees 
effectively, assess a manager's ability to meet these 
standards, and provide training to improve areas identified in 
personnel assessments.
    I also believe this training will address the perceived 
shortfalls in the General Schedule, or GS. I know there are 
those who believe that the government should throw out the GS 
because, in their view, agency employee performance has not 
improved. I, on the other hand, believe that the lack of 
manager training is a primary reason the GS has not lived up to 
expectations. The GS was designed to be a performance-based 
compensation system that is both transparent and credible.
    Mr. Chairman, I am grateful for the support my bill has 
received from the Government Managers Coalition; AFGE; NTEU; 
IFPTE; the AFL-CIO; Metal Trades Department, as well as the 
Partnership for Public Service. And, I want to thank you again, 
Mr. Chairman, for holding today's hearing and your efforts in 
these areas. I also want to thank our witnesses for being here 
today. Thank you.
    Senator Voinovich. Thank you, Senator Akaka. Senator 
Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Mr. Chairman. I admire your 
interest in trying to make government more efficient and I know 
that you come from an environment where employees were a 
critical part of your functioning in your previous positions in 
government.
    I have been honored to serve in the Senate for 21 years. 
Before that, I worked in the private sector. I helped start a 
company that was listed as one of the six best companies in 
America, included with companies like General Electric and 
Chevron. I and two brothers founded that company. So I speak 
from some experience.
    When I look and see what happens here, I, too, would like 
to see efficiency and productivity, and I believe that 
government employees are among the most dedicated staff that I 
have seen, and that includes all of my business experience. 
When I came to the Senate and left ADP, we had 16,000 
employees. It is dwarfed now because they have 44,000, but our 
work was primarily in the personnel area. So in many ways, this 
zealous commitment creates a loyalty rarely found.
    Seeing each group from a personal experience tells me that 
as a result, exceptional performances are often given by 
government employees who have little more than the security of 
their job that attracts them to it, because if it is 
competition for higher wages, they can do a heck of a lot 
better outside the government. While there may, and there 
always are, malingerers and people who are lazy, the question 
of letting political influence creep into the decisionmaking, I 
think, is a high risk.
    Now, when we talk about the unions and collective 
bargaining, things have happened. In the wake of the terrorist 
attack on September 11, 2001, Congress told the Department of 
Homeland Security and Department of Defense to overhaul their 
pay and workplace rules, to get rid of the General Schedule 
band system that has been in place since 1949.
    Mr. Chairman, I believe that there is a role for collective 
bargaining. I am a strong believer in organized labor. I 
learned of my father's experience when he was growing up and 
how employment was in the days before unions. The people who 
rushed to their death in the World Trade Center, trying to save 
lives of people that they never met, were members of a union.
    But in the aftermath of September 11, 2001, the Bush 
Administration saw an opportunity to close down organized 
labor, got new workplace rules it wanted for DHS and the 
Department of Defense, and so far, those rules haven't worked 
out as planned. Courts have ruled that they go too far in 
stripping the rights of workers. In fact, the latest such 
ruling was handed down Tuesday of this week by the Federal 
Court of Appeals in the District of Columbia, and it is clear 
that this approach was not the right way to go.
    If the Administration really wants to make government more 
efficient, more accountable, I urge them to sit down with 
public workers and find ways to accomplish that goal. Given the 
importance of the mission of DHS, we need to attract the best 
and the brightest. Taking away employees' rights and 
protections isn't going to attract the kind of workers that we 
need to keep America safe.
    Mr. Chairman, as we look around this room and our offices, 
I have never seen a more dedicated, committed group of people 
working. I think the same is true of departments throughout 
government. So while I salute the effort to make the system 
work better, I do also recommend that we keep in mind that the 
security factor is a huge factor in people working in 
government, knowing that it is a reliable place to work and 
that if they do their job, they will move along, that there are 
some extra conveniences.
    Thanks very much, Mr. Chairman. I appreciate it.
    Senator Voinovich. Thank you, Senator Lautenberg. 
Congratulations, by the way, on your company. That is 
wonderful. That should make you feel good. It is like your 
child is growing up and it is doing great.
    Senator Lautenberg. Yes, just the poor boys, the three of 
us. My father died from an occupational exposure when he was 43 
years of age and he was a health faddist, and his brother died 
similarly at a very young age. So I have strong worker 
orientation. When I see that our company is listed with GE and 
the others, it is a mind-blowing experience. I have been lucky.
    Senator Voinovich. That is great.
    Our first witness today is Dan Blair. Linda Springer is out 
in the field. I spent a lot of time with her this week, and she 
is visiting all OPM offices. When OPM did their annual employee 
survey, employees said they felt that the management was 
disconnected from the employees. So Linda is out there spending 
time with folks and letting them know that she cares about them 
and wants to hear what they think needs to be done to help them 
do a better job.
    So, Mr. Blair, we are very glad to have you here, and if 
you will stand, I will administer the oath. Do you swear the 
testimony you are about to give this Subcommittee is the truth, 
the whole truth, and nothing but the truth, so help you, God?
    Mr. Blair. Yes, I do.
    Senator Voinovich. Mr. Blair, you may begin.

TESTIMONY OF THE HON. DAN G. BLAIR,\1\ DEPUTY DIRECTOR, OFFICE 
                    OF PERSONNEL MANAGEMENT

    Mr. Blair. Mr. Chairman, Senator Akaka, and Senator 
Lautenberg, thank you for inviting the Office of Personnel 
Management (OPM) to testify about the proposed Federal 
Workforce Performance Appraisal and Management Improvement Act, 
S. 3492, and the proposed Federal Supervisor Training Act, S. 
3594. I am pleased to testify here on behalf of OPM and 
Director Linda Springer. I know that we are all pressed for 
time, so I will ask that my full statement be included for the 
record, and I am happy to summarize.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Blair appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    Senator Voinovich. Thank you.
    Mr. Blair. OPM is pleased to endorse and support your 
legislation, S. 3492, Mr. Chairman. We view enactment of this 
legislation as an important step to ensure that we are able to 
have a 21st Century compensation system for Federal employees. 
I would be remiss if I failed to acknowledge your steadfast 
commitment and Senator Akaka's commitment to improving Federal 
management policies and practices. The support of you both has 
been essential to the significant changes we have already 
achieved.
    As we look to the future, we view S. 3492 as laying 
essential building blocks entirely consistent with the 
direction future personnel reforms must take. As you know, 
years of experience with effective pay-for-performance systems 
with nearly 100,000 Federal employees has made clear that 
further experimentation is not needed. We firmly believe having 
Congress spell out these requirements in statute sends a 
powerful message to employees, managers, and the American 
public.
    Senator Akaka, I want to recognize you, as well, for your 
efforts in crafting the Federal Supervisor Training Act, S. 
3584. I understand it was introduced Tuesday evening and OPM 
staff is studying the specifics at this time. However, let me 
say that I believe we share general agreement about the 
necessity for and the benefits of good quality training of 
managers and supervisors, and we look forward to working with 
you on this legislation as well.
    Both of your bills emphasize training, and let me give you 
a snapshot of our efforts to date. OPM, under both of these 
bills, would be prepared to set standards and offer effective 
training, as we have with the Human Capital Initiative under 
the President's Management Agenda. Through that agenda, OPM has 
provided extensive guidance to agencies redesigning their 
performance management systems to better improve employee 
performance plans by ensuring their alignment with 
organizational goals and focusing employees on achieving 
results.
    This year, agencies have identified what we call beta, or 
test, sites to implement and assess the revised systems, and 
those agencies will complete the performance appraisal cycle at 
their beta site by September 30 of this year.
    Mr. Chairman, we are pleased your bill sets a direction to 
move further towards pay-for-performance. With respect to the 
specific pay-for-performance proposals contained in your 
legislation, we agree strongly that creating a basic 
performance contingency for getting any pay increase is a very 
reasonable first step. We owe it to the vast majority of good 
performers to acknowledge their positive contributions and not 
treat their underperforming counterparts in an identical 
fashion.
    Mr. Chairman, I want to note clearly that your bill 
includes appropriate and significant safeguards and due process 
requirements to reassure employees they will be treated fairly. 
We agree this is an essential element for any pay-for-
performance feature.
    That concludes my oral statement. I appreciate the 
opportunity to speak to your proposals and am available to 
answer any questions you might have.
    Senator Voinovich. Thank you.
    We will have, I think, one round of questions for 5 
minutes. I understand OPM in May issued a new regulation 
requiring agencies to submit data to OPM on employee training. 
This will be very helpful to us in understanding agency needs 
and correct the longstanding frustration I have with agencies' 
inability to tell me how their training dollars are being 
spent. I am still frustrated. I think in their budget 
submissions there ought to be a separate line for training so 
that we know agencies are using money for training their 
people.
    Both Senator Akaka's and my bills mandate training for 
supervisors and managers. Are there additional steps we, in 
Congress, should consider to ensure agencies have the necessary 
resources to deliver this training without compromising 
training for other employees' skills?
    Mr. Blair. Let me first say that we issued those 
regulations back in May and they ask agencies to report on 
their training plans, expenditures, and activities, creating a 
basic inventory of what training is taking place out there. It 
will do so in an electronic format, which will be made 
available to us, and presumably the Congress, if or when asked. 
It will give a better snapshot of what training is taking 
place.
    The President's budget this year had roughly $20 million in 
training needs in the area of performance management across 
agencies. It wasn't one line item in the budget. Rather, it was 
embedded in each agency and department's request. For instance, 
OPM had a portion of that which was roughly around $2.1 
million. We are still working with the appropriators to ensure 
that request is maintained.
    But, gathering this data by way of this regulation is going 
to be a significant first step in addressing what, I think, 
Senator Akaka has said earlier is a patchwork of training that 
occurs across government. We agree this is a problem. We think 
that we can do a better job of inventorying it, looking at 
exactly what is out there in order to get a better idea of 
where we need to move forward.
    But I think that both of your bills speak very highly of 
training, and that is something, I think, that there is broad 
agreement on.
    Senator Voinovich. One of the things that disturbs me is 
that our appropriators sometimes ignore how important money is 
for training and for human resources. I would hope that OPM is 
weighing in on the budget for max HR at the Department of 
Homeland Security because the House just cut its funding. We 
need to get some help to get that money restored, although it 
will not be as much money as they had originally asked for 
because of the recent court ruling. Are you and Director 
Springer working on that?
    Mr. Blair. We are going to be working on that, and I would 
also say that we would also be looking to leaders like yourself 
to help us in that endeavor, because it is important that these 
systems be properly funded in order to move forward.
    Senator Voinovich. I think it is incumbent on all of the 
Members of the Senate to share with the appropriators how 
important dollars are for human resources.
    The other thing, Mr. Blair, is that we will have 
representatives testifying today from two of our major unions. 
They are really concerned about adequate protections in Title V 
to protect employees and their pay against retaliation by 
managers, and would they be preserved under my legislation?
    Mr. Blair. I would say that today----
    Senator Voinovich. We are always worried about 
arbitrariness and capriciousness. How do we safeguard to make 
sure that performance appraisals and pay decisions are not 
arbitrary and capricious?
    Mr. Blair. I certainly don't think that any of us want to 
give short shrift to those kinds of considerations. Today, 
those protections are in place, and those protections would 
remain and be made consistent with today's law under your bill. 
So I think that it addresses those concerns very well.
    Senator Voinovich. What I would like to do is to have you 
provide me with a survey of where situations have arisen where 
people feel they have been treated unfairly and share that with 
me.
    Mr. Blair. OK.
    Senator Voinovich. Later this Congress, this Subcommittee 
will be having a hearing on the implementation of pay-for-
performance in the Senior Executive Service. I would be 
interested in hearing from OPM if there are folks that have 
gone through the process and where someone feels that they 
haven't been treated properly, what the procedure is, and I 
would like to hear about that, too.
    Mr. Blair. Certainly, Mr. Chairman.
    Senator Voinovich. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. Mr. 
Blair, I want to thank you for your testimony and I also want 
to thank you for your continued commitment to public service.
    Mr. Blair. Thank you.
    Senator Akaka. I am pleased to note OPM's initiative to 
track training. OPM has fought for improved performance 
management training.
    Mr. Blair, you have heard from Senator Lautenberg and also 
from the Chairman concerning relationships between employees 
and the managers. Senator Lautenberg believes, as I do, that 
the Administration should sit down with employees. Ms. 
McGinnis, who is on our second panel, makes an interesting 
point in her written testimony that the level of trust between 
political employees and civil servants impacts Civil Service 
reform.
    Mr. Blair, what suggestions do you have for improving the 
trust between employees, managers, and political appointees?
    Mr. Blair. I think the basic underlying foundation for 
building trust is fair, open, and transparent communication, 
and that is one of the reasons, I think, that Senator 
Voinovich's bill is so important, because it starts to build 
that line of communication. One way to develop that is to make 
sure that a supervisor and a manager have clear expectations 
for what they think an employee should be doing, and those 
communications should be transmitted, should be in writing, and 
they should be consistant. There should be feedback made 
available. The employee's input should be considered, as well, 
in establishing those expectations.
    So I think the first building block in building that kind 
of trust is making sure that expectations are communicated and 
communicated well. From then, I think you can build on that. 
You can move forward on that in ensuring that supervisors and 
managers understand their role and that employees understand 
that managers and supervisors are going to be held to the same 
levels of accountability that employees are. I think that is 
very important, that you don't have inconsistent treatment of 
employees across the workforce.
    I think both of those things are very well enshrined in 
Senator Voinovich's bill, and I think that would put us on a 
very positive step forward to address the concerns you just 
raised.
    Senator Akaka. Mr. Blair, has there been any discussion 
within OPM to bring back the Labor-Management Council of the 
last Administration?
    Mr. Blair. Well, I am not sure what you mean. Are you 
talking about partnerships? We have a Labor-Management Council 
at OPM that deals specifically with OPM issues. But if you are 
referring to the partnership agreements that were a part of a 
previous Administration, I am not aware of any.
    Senator Akaka. Thank you. Mr. Blair, you note that the 1978 
Civil Service Reform Act (CSRA) includes requirements for 
employee performance appraisals that were drafted prior to the 
Government Performance and Results Act of 1993 (GPRA). You 
conclude that the CSRA paid little attention to strategic 
contributions and expected results. However, there is nothing 
in the CSRA that prohibits the linkage between performance 
appraisal systems with strategic goals and annual performance 
plans and GPRA. My question is, why do you believe agencies 
have not made this linkage that you say is missing under the 
General Schedule?
    Mr. Blair. Well, I think that agencies weren't held 
accountable for making such linkages. I think that for a long 
time, the focus wasn't on results or outcomes or 
accountability. I think that the President's Management Agenda 
has helped turn us in that direction. I think that more 
statutory reform will be needed. I would note that Senator 
Voinovich's bill would bring about those kinds of alignments, 
and I think it is very important that agencies move forward, 
and I think progress is being made. We are not where we need to 
be on performance management, but I don't want to say the glass 
is half-empty when, in fact, tremendous progress has been made 
in the past 5 years.
    I referenced in my oral testimony and my written testimony, 
for instance, the test sites that we have at the agencies that 
will be the incubator, the laboratory for better performance 
management, which then could spread throughout the agencies or 
departments where they are located. We will be getting more 
results from those at the end of the fiscal year. I think that 
it is very important to have strong, robust performance 
management systems aligned where you have strong, robust 
performance evaluation systems in place.
    I think it can do nothing but help improve morale. I think 
when a supervisor or manager sits down and communicates clearly 
with an employee to set expectations, when that employee 
provides that kind of feedback in that situation, those are the 
types of situations where employee input is valued. Outcomes 
are expected, but it is transparent, it is credible, and it 
will move us forward, I think, in building a higher-performing 
workforce.
    Senator Akaka. I have a follow-up question, but because my 
time has expired, I will submit my remaining questions for the 
record.
    Senator Voinovich. OK, thanks.
    Senator Akaka. Thank you.
    Senator Voinovich. Senator Lautenberg.
    Senator Lautenberg. Mr. Blair, you obviously must be 
familiar with the opinion of the circuit court and with the 
story that was in the Washington Post where they say the 
Department's regulations--Homeland Security, we are talking 
about--renders collective bargaining meaningless, it is utterly 
unreasonable, impermissible because it makes no sense on its 
own terms, the three-judge panel found. Another point in the 
50-page opinion, the government's position not only defies the 
well-understood meaning of collective bargaining, it defies 
common sense. I urge you to read the article, if you haven't 
seen it, by Stephen Barr yesterday.
    How do we comport ourselves with that kind of a judgment by 
an appeals court? And when in your comments I see that you say, 
years of experience with effective pay-for-performance, nearly 
100,000 employees, have made it clear that further 
experimentation is not needed, so how do you measure your 
success? I ask in the interest of a very perceptive Chairman, 
who makes us obey the rules, so the 5 minutes applies to you as 
well as it does to me. So Mr. Blair?
    Mr. Blair. Last year, we had the opportunity to prepare for 
Senator Voinovich and for Senator Collins, and we would be 
happy to provide that for you, a report on the experience that 
we have seen with alternative personnel systems across 
government. Current law provides for demonstration project 
authority in which you can experiment with a number of 
different aspects of personnel management. A number of the 
demonstration projects out there have incorporated pay-for-
performance.
    Senator Lautenberg. Were these a selected group of 
employees that were tested, or that were questioned?
    Mr. Blair. You mean that were a part of the demonstration 
project?
    Senator Lautenberg. Particular departments----
    Mr. Blair. Yes, sir, they were. Many were in the Department 
of Defense, but you have employees at the Department of 
Commerce, and I can provide you with the inventory. It was 
across government.
    Senator Lautenberg. I would ask you to do that, because the 
one thing I can't disagree with the Chairman on, and that is 
that there is absolute need for training. Any organization this 
size, this complicated and cross-referenced in so many ways 
needs constant, particularly management training. It is 
distressing to find out that funds are either not available or 
are not used in that manner.
    Mr. Blair. If I can just continue a little bit further, 
because I think that this will help further our discussion, it 
is interesting, especially with those alternative personnel 
systems and the experience we have seen, when you go into these 
systems, there is great employee angst, anxiety, and 
uncertainty about these new systems when they enter it, and 
that is only fair----
    Senator Lautenberg. These are subjective views of yours, 
sir.
    Mr. Blair. Well, no, these were----
    Senator Lautenberg. Well, I am going to ask you to furnish 
in writing----
    Mr. Blair. I will be happy to. I mean, based on the surveys 
that we have done----
    Senator Lautenberg. In the interest of time, I am going to 
continue and we will live by those rules. Is morale a factor 
when evaluating the success of these programs?
    Mr. Blair. Absolutely. That is what I was going to address. 
We look at employee satisfaction, and over time, employee 
satisfaction starts at a low level and increases, and increases 
to the point that the majority of employees would not want to 
go back to the old General Schedule system after having 
experienced these systems. So clearly, there is room for 
improvement from the General Schedule. These systems employ 
performance management and evaluation plans which recognize 
distinctions in employee performance, reward better 
performance, and make----
    Senator Lautenberg. Yes, I know the opinions that you 
expressed and I respect them. Honestly, I do. But there are a 
couple things that I really want to get to. One of them is the 
collective bargaining situation that was revealed in the 
commentary by the circuit court. What do you think about that? 
Is the court making sense or not?
    Mr. Blair. I haven't had a chance to study the 50-page 
opinion yet, but I will say the Administration certainly had 
one side. The unions had another. The court ruled for the 
unions, and at this point, the Administration is deciding what 
course of action to proceed. We certainly respect the court's 
opinions in terms of----
    Senator Lautenberg. I hope so.
    Mr. Blair [continuing]. Not moving forward, but I think 
what is also interesting in here is that there are other 
opportunities to move forward in areas outside the labor-
management relations area and that seemed to be the focus of 
the court's attention. I think it is important to note that 
Senator Voinovich's bill has no labor-management changes in 
that, and so I wouldn't want one to confuse the DHS and NSPS 
proposals with the proposal that Senator Voinovich has.
    Senator Lautenberg. Mr. Blair, have you been in government 
a long time? I don't know you.
    Mr. Blair. Actually, I used to serve on the staff of the 
full Committee for 4 years.
    Senator Lautenberg. You did? Any experience with outside 
employment practices, outside of government?
    Mr. Blair. No, sir.
    Senator Lautenberg. Thanks, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Lautenberg. It will 
be interesting, Senator Lautenberg, the first spiral of the new 
National Security Personnel System is underway, so we will have 
a good chance to see how that is working. We will have some 
oversight hearings to monitor implementation. This is what 
Senator Akaka and I had a hearing on in April.
    Second, it is interesting that entities, such as the 
Department of Defense laboratories, operate successful 
alternative personnel systems and have asked to be kept 
separate from the new National Security Personnel System until 
it has been in place. They want to be able to compare data 
before making additional changes.
    We need good information from people about how this system 
is actually working.
    Senator Lautenberg. Excellent.
    Senator Voinovich. Mr. Blair, thank you very much.
    Mr. Blair. Thank you.
    Senator Voinovich. I want to also echo Senator Akaka in 
thanking you for your service.
    Mr. Blair. And thank you for yours, as well.
    Senator Voinovich. I just want to say that I was really 
impressed this week, and I think Senator Akaka was, as well, 
when Director Springer came in with her team. It seems like 
there is a new day in OPM. Let us just keep working on it, OK?
    Mr. Blair. Thank you, sir. Thank you.
    Senator Voinovich. Thank you.
    I would now like our next panel of witnesses to come 
forward. Darryl Perkinson is here on behalf of the Government 
Managers Coalition. Welcome to my good friend Colleen Kelley, 
President of the National Treasury Employees Union. Colleen, 
good to have you back again. Jacqueline Simon, I am so pleased 
that you are here for the American Federation of Government 
Employees. And Patricia McGinnis, who has been working with me 
since 1999 on Federal human capital policy, is here for the 
Council for Excellence in Government. I think we have a really 
good, well-balanced panel. You have the management side, the 
union side, and we have, I guess, the good government side. You 
are all good government.
    Now that you sat down, will you stand up and I will 
administer the oath. Do you swear that the testimony you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Perkinson. I do.
    Ms. Kelley. I do.
    Ms. Simon. I do.
    Ms. McGinnis. I do.
    Senator Voinovich. Thank you. Mr. Perkinson, it is nice to 
have you back again. We are anxious to hear your testimony. I 
ask you all to observe the 5-minute rule. Your written 
testimony will be included in the record. Mr. Perkinson, please 
proceed.

 TESTIMONY OF DARRYL PERKINSON,\1\ NATIONAL PRESIDENT, FEDERAL 
  MANAGERS ASSOCIATION, ON BEHALF OF THE GOVERNMENT MANAGERS 
                           COALITION

    Mr. Perkinson. Thank you, Chairman Voinovich, Ranking 
Member Akaka, and Members of the Subcommittee, for allowing me 
to be here representing both the Government Managers Coalition 
and the Federal Managers Association to present our views on 
enhancing employee performance.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Perkinson appears in the Appendix 
on page 34.
---------------------------------------------------------------------------
    My name is Darryl Perkinson and I am the President of the 
Federal Managers Association. I testify before you today not 
only on behalf of the organization I head, but also as a member 
of the Government Managers Coalition. The GMC was founded 
earlier this year to unify five major executive and management 
associations, the Federal Aviation Administrator Managers 
Association, the Federal Managers Association, the National 
Council of Social Security and Management Associations, the 
Professional Managers Association, and the Senior Executives 
Association, in advocacy for common-sense solutions to bolster 
good government through the Federal workforce.
    Our coalition is a deliberative body and we only put forth 
positions that have received the unanimous support of the 
members of the coalition. When we reach unanimity on a 
position, the GMC speaks for nearly 200,000 Federal 
supervisors, managers, and executives, ranging from career 
senior executives to mid-range GS supervisors.
    To date, we have endorsed four broad legislative 
initiatives to improve employee performance: Rewarding Federal 
employees for not abusing sick leave; an extension of the 
probationary period for most new employees to 2 years; clarity 
on the status and treatment of managers when subordinates file 
EEO complaints; and mandatory supervisor training and 
retraining for those who manage other Federal employees. The 
GMC endorses these initiatives, which we believe will improve 
the overall effectiveness of managers to enhance employee 
performance and produce more results for their agencies.
    It is clear to us that this does not happen to the degree 
that it should. Mandatory training is the only way to ensure we 
are not only hiring the best and the brightest, but we are 
giving them the tools to do their jobs to the best of their 
abilities.
    In order for mandatory training to achieve results, we 
believe there are five critical elements that are essential. 
Every supervisor and manager in Federal Government must receive 
mandatory supervisory training within one year of their initial 
appointment. Supervisors and managers should receive updated 
training every 3 years after the initial training. Training of 
managers must become a priority within each Federal agency and 
department. A specific authorization of Federal funds must be 
made to underwrite the costs of training that is in addition to 
money currently allocated to each agency and department for 
personnel costs. And managers must be afforded participation in 
processes that arise from constructive feedback and evaluations 
required of them from this legislation.
    The GMC is pleased that this Subcommittee recognizes the 
need for mandatory training programs to be implemented for all 
supervisors and managers throughout government. Current law, 
Public Law 108-411, requires agencies to establish a training 
program for managers on how to manage employees whose 
performance is unacceptable, how to mentor and improve employee 
performance, and how to accomplish performance appraisals. 
However, there is no accountability for managers to 
participate, and when budgets are tight, these discretionary 
programs are often the first to have their funding cut. This 
problem is exacerbated by the fact that ongoing personnel 
reforms require a well-trained, well-versed management team to 
implement, and they challenge supervisors to learn new skill 
sets. Experience from this ongoing reform effort has shown that 
managers must be well trained in advance to meet the challenges 
of a Federal pay system that is moving to pay-for-performance.
    The legislation introduced by Chairman Voinovich, the 
Federal Workforce Performance Appraisal and Management 
Improvement Act, includes much of the GMC's desired program, 
providing for training within a year and every 5 years 
thereafter. We would like to thank Chairman Voinovich and his 
staff for accepting the suggestion by the GMC that the program 
allow supervisors to receive credits for training so they do 
not have to retrain upon transferring to a different job within 
government.
    We also commend Ranking Member Akaka for his continued 
interest and action on this important issue and for including 
in his legislation, the Federal Supervisor Training Act, an 
accelerated time table and noted authorization of funds. In 
these times of strained budgets, training is viewed often as a 
secondary expense and is, therefore, the first program to meet 
the chopping block when Congress, the Administration, or an 
agency must allocate funds. With mandatory training taking the 
force of law in these bills, Congress and the Administration 
will be obligated to recognize the fundamental requirement to 
train Federal supervisors and the management force. Our biggest 
concern is that your efforts in drafting this legislation and 
bringing to it the final passage will not achieve the results 
unless you seek a specific authorization of funds to underwrite 
the costs of that training.
    I thank you for the opportunity to present our views and I 
will be pleased to answer any questions you may have. Thank 
you.
    Senator Voinovich. Thank you, Mr. Perkinson. I think it is 
wonderful that you have all joined in a coalition because that 
gives us a nice perspective from all of you on the management 
side of government.
    Mr. Perkinson. Yes, sir.
    Senator Voinovich. Ms. Kelley.

TESTIMONY OF COLLEEN M. KELLEY,\1\ NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you very much, Chairman Voinovich, 
Ranking Member Akaka, and Senator Lautenberg. I really 
appreciate the opportunity to be here today at this important 
hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kelley appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    Mr. Chairman, NTEU appreciates your recognition of the need 
for supervisor training, accountability, and development. NTEU 
also appreciates Senator Akaka's introduction of the Federal 
Supervisor Training Act, S. 3584. We believe that S. 3584 
expands and develops in a very positive way the basic mandate 
for supervisor training in S. 3492.
    S. 3584 adds several essential features to a supervisor 
training initiative that NTEU views as critical. A more 
detailed description of the type of training to be required, 
specifying that training must be interactive and instructor-
based, more than simply a review of written materials. Training 
must be delivered by training professionals in a situation, 
either face-to-face or Internet-based, which allows dialogue, 
questioning, and interaction between student and teacher.
    S. 3584 also requires more than simply training in the 
supervision of employees, but it requires working with 
employees, communicating with them, and discussing their 
progress. A good manager needs to do more than correctly 
evaluate an employee. A good manager needs to know how to 
develop an ability to help his or her subordinates to become 
top performers. Absolutely essential, we believe, is the 
requirement in the Akaka bill to include supervisor training on 
prohibited personnel practices, particularly violations of 
statutorily prohibited discrimination and whistleblower rights.
    S. 3584 also adds another important feature which is 
missing in S. 3492, the promulgation of management performance 
standards. While S. 3492 refers to holding supervisors 
accountable, it does not include any penalties, disincentives, 
or rewards that are tied to managerial performance. It is 
unclear to me what provisions in the bill would provide that 
accountability.
    NTEU is also concerned, as Mr. Perkinson identified, as to 
whether this training initiative will be adequately funded. 
NTEU would prefer that this legislation clarify exactly where 
the resources will come from to finance this important 
initiative.
    With regard to S. 3492, much of the section dealing with 
performance appraisal systems is already in place. For example, 
linking the system with the strategic goals in the annual 
performance plan of the agency is a basic tenet of GPRA. While 
the bill calls for a written performance appraisal annually, 
OPM regulations currently call for a written rating of each 
employee on an annual basis. We have no objection to the 
language in S. 3492, which makes clear that a written 
performance appraisal is required annually.
    The major change, however, in this section adds the term 
``compensating'' to the list of uses for which the performance 
appraisals can be used. Current law states that agencies can 
use performance appraisals as a basis for training, rewarding, 
reassigning, promoting, reducing in grade, retaining, and 
removing employees. The purpose of including ``compensating'' 
in this list is made clear in Section 4 of the bill, which 
states that an employee whose summary rating of performance for 
the most recent completed appraisal period is below fully 
successful, that employee may not receive the annual across-
the-board or locality pay increases.
    Under current law, an employee who has received an 
unacceptable performance evaluation may not receive a grade or 
a step increase. These increases are tied to performance and it 
is entirely appropriate that they be withheld if an employee's 
performance is less than acceptable. The annual across-the-
board and locality increases, however, were created by the 
Federal Employee Pay Comparability Act with the purpose of 
achieving comparable pay between Federal employees and their 
counterparts in the private sector. These increases are tied to 
the position and location, not to the individual, and 
therefore, withholding these increases based on the performance 
of the individual completely drops the goal of comparability, 
which has been the goal of the Federal sector for decades. If 
Congress wants to drop the goal of comparability with the 
private sector as the basis of Federal pay, I think that should 
be noted and debated. That is clearly the result of what this 
proposal will be and NTEU opposes that.
    According to a GAO report last year, they identified that 
three-tenths of one percent of employees rated in the year were 
rated unacceptable. This is an extremely small number and 
should not drive major changes in the basic tenets of our pay 
system.
    The 2005 GAO report also identified various impediments to 
dealing with poor performance. They identified time and 
complexity of the processes, lack of training in performance 
management, and communication, including the dislike of 
confrontation. None of the top impediments cited include lack 
of sufficient disincentives for poor performance. Rather, the 
impediments highlight managers' reluctance to engage in the 
processes that will have an impact rather than on the processes 
themselves.
    I would close by identifying another feature in the bill 
that I was very surprised at, and this was a portion that says 
that the rank and file employees would be denied across-the-
board and locality increases unless a performance-based 
standard is achieved. However, it appears that SES employees 
would be provided with a pay increase totally unrelated to 
individual performance. To increase pay for the highest-paid 
employees regardless of their performance in the same piece of 
legislation that would be cutting the pay for front-line 
employees based on performance is only going to increase the 
skepticism about a new pay-for-performance system being fair.
    I would also identify time lines as a potential concern for 
NTEU. S. 3492 says that agencies will have to have new 
appraisal systems certified by OPM by July 2007. Based on the 
problems both DHS and DOD have been having in designing new 
systems, this seems a very short period of time, and also to 
affect pay increases for the SES 180 days after enactment, long 
before other sections of the bill would be in place, will give 
the appearance that the goal of this legislation is about 
providing the highest-paid employees with pay increases 
unrelated to their performance, and I would hope that is not 
the case.
    So I appreciate the opportunity to testify and welcome any 
questions you have.
    Senator Voinovich. Thank you very much. Ms. Simon.

   TESTIMONY OF JACQUELINE SIMON,\1\ PUBLIC POLICY DIRECTOR, 
          AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

    Ms. Simon. Mr. Chairman, Ranking Member Akaka, and Senator 
Lautenberg, on behalf of the more than 600,000 Federal and 
District of Columbia employees AFGE represents, I want to thank 
you very much for the opportunity to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Simon appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    You have asked for AFGE's views on two legislative 
proposals, the Federal Workforce Performance Appraisal and 
Management Improvement Act and the Federal Supervisor Training 
Act. AFGE appreciates the time and attention that have gone 
into the development of these proposals as well as the evident 
intention to improve the functioning of the Federal Government 
and the ability of Federal managers to perform their jobs 
competently.
    The proposal in S. 3492 takes a new turn from previous 
proposals. Heretofore, pay-for-performance proposals have been 
promoted as opportunities to reward high performers and help 
the government recruit and retain the best possible talent. 
Although these schemes invariably include a punitive element, 
that element is usually barely mentioned. The emphasis is 
always on the positive, the promise of higher pay for employees 
and higher performance for agencies.
    Yet this bill provides virtually nothing in the way of 
reward. The emphasis is all on the negative, the threat of 
punishment for so-called poor performance. S. 3492, in other 
words, takes an emphatic position on the proverbial, which 
works better, the carrot or the stick? This is all stick and no 
carrot.
    The proposal to withhold the annual pay raise in S. 3492, 
if it were the only thing that had happened to Federal 
employees, and we knew that it were an end in itself, would be 
one thing. But after 5 years of having the Bush Administration 
take away collective bargaining and appeal rights from the two 
largest agencies in the Federal Government, and knowing of 
their desire to spread this bad system government-wide through 
the Working for America Act, and even after three negative 
court decisions, AFGE cannot support even a modified version of 
S. 3492.
    During the same period when Federal employees have had to 
try to fend off the Administration's efforts to take away 
collective bargaining and appeal rights and privatize their 
jobs, we have also had to put up with skyrocketing health 
insurance premiums and an OPM that either cannot or will not 
engage in serious negotiations with insurance companies to keep 
a lid on their greedy behavior and whose focus in regard to 
health insurance has been to try to shift more costs onto 
employees and retirees. Now, we believe that is a performance 
problem that needs attention.
    In the meantime, overall Federal pay continues to lag 
behind the private sector and State and local governments by 
about 14 percent, on average, nationwide. If we start making 
the annual pay raise optional, it will only lay the foundation 
for reducing raises even further in the future, thereby 
punishing the more than 95 percent of Federal employees who by 
all accounts are doing a very good job.
    Contrary to what some pay-for-performance advocates have 
suggested, Federal employees do not lie awake at night hoping 
their supervisor will withhold the annual pay raise from their 
less-than-stellar coworker. When they are not worrying about 
their lengthy and increasingly expensive commutes, the rising 
cost of health insurance, and whether their jobs are going to 
be contracted out, chances are they are worrying about how to 
keep up the pace at work, where they are continually expected 
to do more with less and do so without gratitude or 
recognition.
    On the rare moments when they might think about poor 
performers in their workplace, what they do want is for their 
supervisor to take appropriate action to correct the behavior 
of the poor performer. It is undoubtedly the case that 
sometimes people are poor performers because they are lazy, or 
have a negative attitude. For those employees, the supervisor 
should take action under current law. Put the employee under a 
performance improvement period and then take disciplinary 
action if that doesn't succeed.
    Often, however, people are poor performers because they 
truly don't understand how to do their work, or they think they 
do but need additional training and attention from their boss. 
They may be in the wrong job. For those employees, withholding 
an annual pay raise will only serve as an intimidation and a 
disincentive to ask for additional help. It won't help get the 
job done.
    In contrast to S. 3492, the proposed Supervisor Training 
Act is focused on positive strategies that make sure Federal 
managers receive adequate, high-quality training designed to 
teach them how to help all Federal employees improve their 
performance. One thing that bears mention is that the bill 
establishes a program whereby experienced supervisors mentor 
new supervisors by helping them with such important managerial 
skills as communication, critical thinking, responsibility, 
flexibility, motivating employees, and teamwork. In the context 
of political denunciations of the current system's emphasis on 
longevity, it is refreshing to see a legislative proposal that 
values the benefits of tenure and experience and the 
transmission of knowledge and skill.
    This concludes my statement. I would be very happy to 
answer any questions you or Members of the Subcommittee may 
have. Thank you.
    Senator Voinovich. Thank you very much for your testimony. 
Ms. McGinnis.

    TESTIMONY OF PATRICIA McGINNIS,\1\ PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER, COUNCIL FOR EXCELLENCE IN GOVERNMENT

    Ms. McGinnis. Thank you, Mr. Chairman, for inviting me to 
be part of this discussion. I want to compliment you and 
Senator Akaka for the very constructive bipartisan effort that 
you have shown over the years in trying to improve government 
performance and also to develop the potential of Federal 
workers to do their jobs well. The full Committee and this 
Subcommittee really are a model in the Congress for 
bipartisanship.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McGinnis appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    As you know, the Council for Excellence in Government is a 
nonprofit, nonpartisan organization that focuses on improving 
performance of government, building public-private 
partnerships, and engaging the American people to improve 
government results and accountability. We are a group of 
private sector leaders who have served in government and truly 
care about these issues.
    Attracting and developing talented people for public 
service is one of our key objectives, and as you know, we have 
worked hard to bring different perspectives on these issues 
together in constructive discussions. A series that you 
participated in, we held with the Washington Post to focus on 
what the new public service can look like given the huge number 
of retirements and the opportunity to reshape it. We brought 
together for the first time in an historic session the union 
leaders, AFGE President John Gage and Colleen Kelley from NTEU, 
with OMB Deputy Director Clay Johnson and Comptroller General 
David Walker. This was the first time they had ever appeared in 
public on a panel together, talking with each other.
    It was very interesting. We had two sessions, one on their 
vision for public service 10 years out, because we wanted to 
get beyond all of the litigation and legislation and issues on 
the table now. It was very interesting how much of a consensus 
there was. I think they were surprised themselves when they 
heard each other.
    John Gage talked about a rebirth of the service culture in 
the Federal Government, more collaboration, more choice, less 
of an adversarial relationship between employees and 
management. Clay Johnson talked about a culture where getting 
better is just what we do, getting better personally, 
professionally, programs getting better. Colleen Kelley 
described a workforce that is valued, respected, and recognized 
as having expertise, and employees who would be given the 
resources to do their jobs well. And, of course, David Walker 
also talked about a rebirth of public service where the 
government would be an employer of choice and we would be able 
to attract the best and brightest.
    The consensus on this vision falls apart when these leaders 
get into details of how we should get there, and that is why I 
brought up the lack of trust that Senator Akaka mentioned 
earlier and also the lack of ownership of solutions. Those two 
things, the lack of trust and the lack of participation and 
ownership of the solutions, I think are the main roadblocks to 
meaningful reform.
    John Gage was deeply cynical about cronyism and patronage. 
Colleen Kelley called for a two-way conversation between 
management and employees. Clay Johnson talked about a bad tone, 
the wrong tone. And David Walker said, and we certainly agree 
with this, that the current GS system is not market-based, it 
is not skills, knowledge, and performance oriented, and it does 
not result in equal pay for work of equal value over time. I 
think it is really too bad that the discussion now is either 
let us stick with what we have or let us do something 
dramatically different, and there seems to be nothing in 
between that we can agree on.
    That is why I think your legislation, and also Senator 
Akaka's bill, represent important steps, progress that could be 
built upon to create a much larger reform effort.
    Linda Springer came to the forum and talked about--and I 
think this is very important because it should be part of the 
conversation about reform--the challenge to recruit, engage, 
and manage a whole new wave of employees who want more flexible 
work arrangements, greater mobility, and different kinds of 
training. If you look out there at the job market and who we 
are going to have to recruit, we need to understand both what 
they are going to find attractive about the government and also 
what are the state-of-the-art best practices, many in the 
private sector, that we should be emulating.
    You joined us in one of these sessions to announce that you 
were going to introduce this bill. We really appreciate that.
    Let me turn to what the employees say about these issues, 
because I think that should guide the discussion, almost more 
than what the leadership of either the unions, the 
Administration, or other organizations have to say.
    Senator Voinovich. Ms. McGinnis, if you can kind of wrap it 
up, I would appreciate it.
    Ms. McGinnis. I will. In the Federal Human Capital Survey, 
the most negative aspects of government service, I think, 
represent the to-do list. One, if you took this bottom part of 
the list, you would base personnel decisions on merit, 
recognize differences in performance in a meaningful way, deal 
with poor performers--that actually is a very big concern among 
employees, provide opportunities for employees to get better 
jobs, and improve certain benefits.
    And then if you look at the differences between public and 
private sector, you would add working on increasing the level 
of satisfaction with training, the level of satisfaction with 
information received from management, and how good a job my 
supervisor is doing.
    That is a great agenda for change and the council supports 
both bills before us today.
    Senator Voinovich. Thank you very much. I would like to 
comment. I have been working on personnel issues for 8 years. 
When Congress debated NSPS and max HR, I advocated for binding 
arbitration. I think the fact that we had ``meet and confer'' 
where at the end, management did what they wanted, did not end 
well. It went to the courts and they have made their decision. 
I don't know what the Administration intends to do next, but 
from this Chairman's point of view, I would like to move 
forward and see if we can't concentrate on figuring a way that 
we can work together.
    Ms. Kelley, you mentioned the fact that three-tenths of one 
percent were not satisfactory. David Walker described the 
performance appraisal systems as abysmal. I know that it is not 
reflective of reality. GSA Administrator Steve Perry, who once 
worked for me, said when he came to GSA, the performance 
appraisal system was zero. I think if someone goes back and 
looks at what he did there, they will find that it is much 
improved. There were some super performers. They started to 
take the time to write effective performance appraisals. It 
wasn't just, get it over with and go on, file it and forget it.
    The point I am making is that the performance appraisal 
really is to let somebody know where they stand, let somebody 
know that someone cares about them. But the worst thing, I 
think, for anyone is to come to work for an agency, come in 
every day, do their work, and not know whether or not they are 
doing a good or bad job, how they can improve, or how the work 
that they do is connected with the goals of the agency. This is 
the goal of my bill.
    It seems that there is one thing that has unanimity here: 
Training. Ms. Kelley, you remember I sent that survey to 12 
agencies when I first came to Congress. I asked them how much 
they were spending on training. Eleven came back and said they 
didn't know. One said, yes, we do, but we won't tell you.
    How do we get training ingrained in the administrative 
branch of government? How do we make sure that is getting done? 
How do we also communicate with the Congress about the 
importance of these dollars to employee satisfaction and 
excellence and doing a better job for the American people?
    Ms. Kelley. I think that is an appropriate question and a 
complex one, because for me, what I have seen over the years is 
that the tone and attitude come from the top. That is where the 
recognition and support has to be, and it is not there as a 
rule. And even when you get to the point of, as you suggested, 
Chairman Voinovich, a line item in the budget, in my 
experience, training is about a lot more than just a line item. 
Although, a line item would be a good place to start, at least 
to know that there were funds identified for it. One of the 
things that often blocks training from being delivered, as it 
should be, out in the workplace is the staff time away from the 
job that it would take to be in training, and that is never 
ever built into whatever the budget dollars are, even if they 
would share those with you and put the appropriate dollars in.
    The second issue I would identify is the substance of the 
training. There are many agencies who will tell you that they 
do training and they can tell you how many hours they did. But 
if you ask employees if that is the training that they need to 
do their job, they would tell you no, that the training being 
provided is not the training that they need, or that they 
should be provided by the agencies. I think many managers would 
say the same thing.
    Senator Voinovich. One of the requirements in my 
legislation is that before an agency could go forward with the 
new system they would have to be certified by OPM and 
managerial training has to be completed so that the employees 
know what they are doing. It must be quality and not just going 
through the motions.
    Any other comments about how we can guarantee the money for 
training?
    Ms. Simon. Sir, I would like to comment on your original 
question with regard to training. I think that, although you 
are right, there is certainly unanimity on this panel, and 
probably any other, that funded training would be a valuable 
and important component of the success of any kind of 
performance management system. The really difficult question 
would be, what would be the content of the training.
    Where the conflict arises is the question of how much 
discretion managers will have to set those performance 
standards, defining what those standards are, and what role 
employees can play in the development of those standards. These 
are very difficult issues, and when they are established 
unilaterally and/or established in a way that they can be 
interpreted entirely at the will of management, training is the 
least of the problems. That is the difficult part.
    Senator Voinovich. So, if OPM is going to be the overseer 
on this, it would seem to me that the kind of things that you 
are talking about would involve communication so there is 
consensus. I would sure do that, sit down with the agency and 
say, here is what we think, what do you think about this. So 
that they start out from the beginning with some understanding 
of what is this that we are talking about.
    Ms. Simon. Well, there is no question about that. But, in 
the context of, just, for example, DHS and DOD, the 
conversations our union has been involved in with the 
management of those agencies and the people in those agencies 
charged with trying to design the type of performance criteria 
would be involved in a performance appraisal, a lot of times 
what is presented are these extremely vague competencies, they 
are called, and they have to do with personal characteristics 
that are extremely difficult to pinpoint----
    Senator Voinovich. Pardon me for interrupting you, because 
I am limited in my own time, also.
    Ms. Simon. Sure.
    Senator Voinovich. Have you looked at the Senior Executive 
Service and the first spiral of NSPS?
    Ms. Kelley. I read a paper about it, but I wouldn't know--
--
    Senator Voinovich. I will tell you, I would really like you 
to look at how the Spirals are being implemented. They are 
working to address what both of you are concerned about. In 
other words, I would really like you to look at how they are 
going about training the trainer, implementation, including the 
program, and the training they have done to conduct performance 
evaluations. I really would like you to look at it and tell me 
what you think of it.
    Ms. Simon. One last very quick comment----
    Senator Voinovich. Yes?
    Ms. Simon [continuing]. And that is a lot of what we have 
looked at in that context has involved what can only be 
described as highly political standards and politicized 
standards for evaluation, and that is really where the problem 
lies.
    Senator Voinovich. Well, I would ask you to do it 
specifically. Tell me what you think. Tell me how it is 
politicized.
    Senator Lautenberg, and then we will have another round.
    Senator Lautenberg. Thanks, Mr. Chairman.
    For Ms. Kelley, you heard my question before that I asked 
about morale. Do you try to gauge that in some way, whether 
formally or informally, and how do you do it?
    Ms. Kelley. Actually, I travel a lot and visit with Federal 
employees in all of our agencies at their workplaces and I 
don't have to do very much questioning or research, because 
usually within the first 5 minutes, employees are starting a 
conversation with me about how bad morale is. It is always 
framed around the fact that they are all looking for--not all, 
but many of them are looking for other jobs. They are counting 
the days until they can retire.
    There was a time when I would talk to our members when 
everyone knew their eligible retirement date but very few were 
planning on going on that date. That is very different today. 
Many in the workforce, Homeland Security in particular, is 
where I hear that employees are looking for other jobs. It is a 
place that they do not feel supported. They do not feel that 
their work is respected, that their opinions are valued, and 
they are not looking at staying with DHS for a long time.
    Senator Lautenberg. Do you have an idea what the turnover 
in DHS is? I think, Mr. Chairman, DHS has a fairly high 
turnover rate. Are you familiar with it?
    Ms. Kelley. I know anecdotally it is a high turnover. When 
I have asked for that number, they have told me they cannot--
they have told me it is standard with the rest of government, 
which I do not believe, and that they cannot share the numbers 
with me because it is a national security issue. So maybe if 
this Subcommittee were to ask that question, they would provide 
you with the turnover numbers, and I would be very interested 
in those, too. But I know it is higher than----
    Senator Lautenberg. We have no problem asking that 
question.
    Senator Voinovich. In fact, we ought to have an oversight 
hearing on the reorganization. Let us face it, putting all 
those agencies together and forming one department and one 
culture. Senator Lautenberg, do you remember how we came up 
with the idea? Senator Lieberman initiated it on the 
recommendation of the Hart Rudman Commission. Remember that?
    Senator Lautenberg. Yes.
    Senator Voinovich. The Administration initially said no. 
Well, the public pressure built up, so finally the light went 
on at the White House. When the Department was created, it 
combined 22 agenceis and 180,000 employees, the biggest 
management undertaking that this government has had since 
creating the Defense Department.
    Senator Lautenberg. Sure. Twenty-two departments merged 
into a department, 180,000 employees----
    Senator Voinovich. It hasn't worked well. What 
Administration should have done is evaluate what agencies might 
go together, maybe start out with four or five. So here we are, 
but the Department has some major problems, and----
    Ms. Kelley. And so many of those decisions were made 
without any input from employees or the unions who represent 
them. There were unilateral decisions made. They were bad 
decisions made from an operations standpoint and surely from an 
employee morale perspective.
    Senator Voinovich. Well, remember when they were developing 
the regulations, we talked about that. That is why I said we 
would have been much better off with binding arbitration so 
that people would have worked it out early on, because they 
would have known there was somebody objective or impartial that 
would make the final decision if there was not consensus.
    Senator Lautenberg. Also, Mr. Chairman, I think it is fair 
to say that there was a lot of flailing about in panic, in 
dismay about what had happened, that it was so terrible. In our 
country's history, it is probably one of the most significant 
events that changed our world. So as a consequence, there was a 
rush, unfortunately, I think, hasty, and I have made some 
outlandish recommendations about maybe--I am not sure about 
divorce, but at least separation for now, an agreed upon mutual 
separation agreement.
    Right now, Ms. Simon, can't managers and supervisors 
already award quality step increases to high performers and 
withhold regular step increases for poor performers?
    Ms. Simon. Yes, that is absolutely the case. What is unique 
in the proposed legislation is to put the locality-based salary 
adjustment and the National Employment Cost Index based-salary 
adjustment at risk and contingent upon a performance appraisal. 
Within-grade increases have always been based on performance 
and Federal employees become eligible for them at certain 
intervals over the course of their careers. But they are 
performance-based.
    Senator Lautenberg. But why is this system inadequate to 
ensuring accountability for employee performance?
    Ms. Simon. Oh, I don't think that it is inadequate. If 
there is anything about it that is inadequate, it would be the 
size of the within-grade increases. They are not enormous. But 
I think surveying the academic literature on what motivates 
employees, particularly public employees, to higher 
performance, money is not the only thing. I don't mean to 
downplay it by any standard. Federal employees are underpaid 
relative to their counterparts who perform similar work in the 
private sector, which is why the principle of comparability was 
enshrined in the law many times over, but most recently, since 
1990, in FEPCA.
    But there are performance-based elements. Last year, or was 
it 2 years ago now, the Workplace Flexibility Act gave enhanced 
flexibility to Federal managers to reward employees they wanted 
to retain or recruit, presumably based on their either manifest 
high performance or potential for very high performance. There 
are many flexibilities within the existing system that haven't 
been adequately funded, which is why they are rarely used. But 
there certainly are opportunities to reward high performers 
and, of course, there is also more than adequate, I would say, 
management authority for dealing with poor performers.
    Senator Lautenberg. Mr. Chairman, the obvious picture that 
is drawn in terms of what needs to be done is if you look at 
the military today and see that in the Reserve, the Guard, 
there are huge bonuses, relatively speaking, for people with 
certain skills that challenge the existing structure. And I 
think the same thing happens today in the Federal Government.
    Mr. Perkinson, I want to ask you, what is the effect of 
proper functioning Federal departments when political 
appointees have no relevant experience to the job that they are 
nominated for? Is that a matter of some consequence?
    Mr. Perkinson. With leadership coming from the top, yes, 
sir, there are times when it does affect management, but I 
think in the management ranks and speaking for managers, we a 
lot of times understand, adjust, and work with our employees to 
the maximum.
    I guess one of my big fears or one of my big problems with 
all this discussion is when we talk about poor performers and 
managers not adhering to or listening to the needs of the 
employees, the public gets this perception it is a major 
percentage of our employees. But I go to work every day and 90 
to 95 percent of our employees do great jobs and dedicated to 
this country and it is outside the scope of the leadership. We 
put the management responsibility to those people at the agency 
level and they are at the grassroots dealing with the 
employees. And I say it has been my perspective in my travels 
that the only things that get highlighted are those things that 
hit the press. The poor performers stand out. Yet every day, 90 
to 95 percent of our people do an outstanding job for this 
country and support this country to the maximum.
    Senator Lautenberg. I believe that.
    Ms. Simon, I noted something in your comments that aroused 
my curiosity. We are saying here that in the private sector 
that pay-for-performance is a fad. I hadn't heard that and I 
was just curious as to how you draw that conclusion.
    Ms. Simon. I drew the conclusion based on a survey of the 
literature on human resource management that I try to keep up 
with. In particular, I have followed the work of Professor 
Jeffrey Pfeffer of Stanford University's Business School. He is 
often quoted in the context of these debates arguing that pay-
for-performance eats up enormous quantities of resources and 
makes everyone unhappy and has yet been empirically shown in 
large private sector firms not to justify its cost, its 
administrative cost, when the actual impact in terms of 
productivity improvement is measured in any objective way.
    Consequently, there are many large corporations in the 
private sector that have done away with elaborate differentials 
for employees in the same positions in terms of their pay 
increase----
    Senator Voinovich. If you could move on.
    Senator Lautenberg. Yes. I think, Mr. Chairman, you and I, 
in our debate, used a little bit of the time, so I would like 
to use some that I lost.
    Senator Voinovich. All right. Go ahead.
    Senator Lautenberg. Just for a moment more, thank you.
    This stunned me, Mr. Chairman, because while I am largely 
on your side of the issue, I don't know of any company that has 
decided that what we will do is pay on the basis of longevity 
and not performance. I want equity and fairness. I want the 
right for employees to have collective bargaining. My father 
described an incident, when he was a young man working in a 
mill of standing with his hat in his hand because his manager 
told him that if he took off of work for a very important 
religious holiday, that he shouldn't come back to work. That 
left a mark on my thinking almost for ever, because collective 
bargaining then came into play and it was different.
    So this is a new one for me. While I am very conscious of 
our responsibility to our people who work for us and the 
outstanding performance that we get, and in this body here, let 
me tell you, working for Senators, that is really a trial. 
[Laughter.]
    So I thank you all for your appearance and your views, and 
Ms. Simon, if you could give us anything that supports that----
    Ms. Simon. I would be happy to.
    Senator Lautenberg. OK. I appreciate it. Thanks, Mr. 
Chairman.
    Senator Voinovich. Thank you, Senator Lautenberg.
    I am just going to finish up with the same question I 
started with. How do we guarantee that the money for training 
is going to be available? Senator Akaka, Senator Lautenberg, 
and I agree it needs to be done. It doesn't seem like it is 
happening. Ms. McGinnis, do you have any ideas on that?
    Ms. McGinnis. I do think that honing in on the investment 
needed for training, what is being invested now and what is 
needed, would be very helpful. We know that in the private 
sector, 2.5 percent to 3 percent of payroll is allocated for 
training. It is hard to get those comparable numbers for 
government. They really don't exist. But there are studies that 
show that certain industries are spending as much as twice as 
much on training as government. So we need to know what we 
should be aspiring to and look at the state of the art training 
and what aspects of training do correlate with performance.
    Senator Voinovich. That is a good idea. I can't remember 
now the percentage. When I was mayor, we had nothing. I think 
we looked at General Electric and found they allocated 10 
percent.
    Ms. McGinnis. You really need to know----
    Senator Voinovich. Maybe that number is high, but these 
high-quality performing organizations put a lot of money in 
training. Perhaps getting information like that across to the 
agencies and to Members of Congress will demonstrate how 
important it is to a good functioning organization. We must 
recognize that this is money well-spent, a good investment in 
good government.
    Ms. McGinnis. I would recommend that.
    Senator Voinovich. Mr. Perkinson.
    Mr. Perkinson. Mr. Chairman, I would like to share with 
you, I think the line item is a good start. I wouldn't say that 
it would be adequate, but to give you an example, Senator 
Akaka, a few years ago in the shipyard community, when they 
were trying to restart their apprentice programs, the money was 
getting lost in the Department of Defense overall 
authorization. Senator Akaka took great steps in applying an 
apprentice appropriation for the naval shipyards so that they 
could get started, and they dedicated those funds to start up 
that program and to get the apprentice funding done. We have 
now gone to where the money is now within the Naval Sea Systems 
Command budget, but that first step in dedicating it to that 
effort caused focus at the agency level to where those funds 
were spent for that specific type of training. So putting the 
line item in, I think, is the right start in having some 
management tool to ensure that those funds are being dedicated 
to the level of training that we would like to have.
    Senator Voinovich. Any other comment on that?
    [No response.]
    Senator Voinovich. I had a hearing earlier this week with 
David Walker and with OPM Director Linda Springer. My 
observation is that they are on the right track. I will say 
that I am impressed with Linda Springer. I think she is 
sincere, hard working, and wants to get the job done. We didn't 
have any of you there, and it seems to me that if reforms are 
going to be successful, at least from my perspective, you have 
to have a really good Office of Personnel Management. I mean, 
it has to be functioning, it has to have the resources to do 
the job. They have to have the competencies in place to 
evaluate whether or not people have been trained up to the 
point where they can do objective performance appraisals.
    I would like each of you in the next couple of minutes to 
just give me a quick appraisal of how do you think OPM is 
doing?
    Mr. Perkinson. I will start off. I think OPM is making 
strides in the right direction. I think we have a long way to 
go in that regard because a lot of times, policies that are 
implemented and discussed stay within the beltway. When you get 
down to the agency level and to the office level, those 
policies and procedures, that are great ideas, are not 
implemented at the local level, for whatever reason. Be it 
budget, be it agency decision, whatever, they are not 
implemented.
    So that being said, I think that we could give Linda 
Springer and OPM, if we would give them some type of 
authoritative push through for the policies and procedures that 
they do----
    Senator Voinovich. Are you familiar with the new plan that 
she has, and the metrics that she is using?
    Mr. Perkinson. Yes, sir, but I still contend, and it has 
been my experience, that there is some disconnect when it goes 
down to the local level. She is working hard on it and she is 
making steps in the right direction, but at the local level, we 
haven't seen it.
    Ms. Kelley. I think that they have good intentions and are 
focused on a lot of the right issues. I have a very open and 
functional relationship with Linda Springer and look forward to 
working with her on these issues. In my experience, two things 
happen. Even when OPM puts forward good, solid advice and plans 
for implementation, they really have no authority to make that 
happen in the agencies. So it is selectively implemented or not 
supported at the top of the agency and definitely down at the 
local level, as Mr. Perkinson describes. That, too, has been my 
experience.
    And there are also other things that I think OPM could 
reach in and correct across government that they haven't done 
yet and I am hoping they are going to, and these are issues 
that I am identifying for Director Springer and will continue 
to work with her on.
    Senator Voinovich. Has she asked you for your advice on the 
things that you think need to be done?
    Ms. Kelley. She has been very open to any issues that NTEU 
wants to discuss and has brought us issues that she wants our 
input into, so yes.
    Senator Voinovich. I just want you to know, I want OPM to 
be the best managed agency in the Federal Government. Without 
that, nothing will happen.
    Ms. Kelley. I know that you do----
    Senator Voinovich. I would really appreciate as much input 
as possible from you and from AFGE and from the Federal 
Managers Association to try and really get that input.
    Ms. Kelley. We will do that.
    Senator Voinovich. Ms. Simon.
    Ms. Simon. Yes, thank you, sir. We have a slightly 
different relationship with OPM because AFGE represents the 
employees of OPM, so I have been sitting here thinking about 
how to answer your question in a politic way. Certainly the 
employees in the headquarters office have had their lives 
turned upside down because OPM has pursued A76 competitions 
with a vengeance, one after another, one bigger than the next, 
and so there is tremendous uncertainty about the future and 
instability and worry and low morale of the rank and file 
workers there.
    Senator Voinovich. I wasn't aware that they were doing 
that.
    Ms. Simon. Yes, sir.
    Senator Voinovich. Have they matured enough so that the MEO 
is competitive with the private sector?
    Ms. Simon. Well, one of the problems with A76 is even when 
the MEO wins, it loses, because invariably, it wins on the 
basis of a proposed alternative that is less expensive and less 
expensive invariably means fewer employees and downgrades. And 
so people are losing their jobs, not as many as would lose 
their jobs if the MEO didn't win, and having their positions 
downgraded. So that doesn't make anyone very happy.
    We have had relatively little contact and communication at 
the highest levels with OPM since Ms. Springer took over, which 
is not to say that it has been hostile, it has just been very 
little communication. But certainly among the rank and rile 
employees of OPM, there is a lot of unhappiness over the 
relentless pace of A76.
    Senator Voinovich. Thank you. Ms. McGinnis.
    Ms. McGinnis. I think Linda Springer is a real breath of 
fresh air. I think she brings to OPM a very practical market 
and performance-oriented approach and she knows the value of 
people in government. So it is very balanced. Her progress on a 
strategic plan and metrics, I think, is commendable. She is not 
waiting for anything. She is moving ahead. The work that she 
has begun on career patterns and preferences, thinking ahead to 
how to recruit and retain and develop the best and brightest 
workforce of the future, I think is quite commendable, as well.
    The role of OPM as a constructive partner to the agencies, 
I think, does have a way to go, but it is on that path and I 
think her leadership is terrific. I can't speak to the morale 
issues, but you can look at that same survey that we have 
talked about and see where OPM stacks up in terms of morale. So 
we ought to all take a look at that. I don't think it is at the 
bottom.
    Senator Voinovich. The problem that we have is that the GAO 
report used 2004 employee survey data. Quite frankly, that 
report showed it wasn't very good. I think that Ms. Springer is 
trying to remedy that situation. We will be getting more GAO 
analysis, but I think you would all agree, that OPM has more to 
do with your lives than any other agency.
    I want to thank you very much for being here. Senator Akaka 
and I are well aware of the fact that nothing will get done 
this year without unanimous consent in the Senate, as you have 
observed. So we are going to see if we can't work something out 
between the two of us on these two pieces of legislation. It we 
can't, we will see you next year. [Laughter.]
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:14 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 29509.001

[GRAPHIC] [TIFF OMITTED] 29509.002

[GRAPHIC] [TIFF OMITTED] 29509.003

[GRAPHIC] [TIFF OMITTED] 29509.004

[GRAPHIC] [TIFF OMITTED] 29509.005

[GRAPHIC] [TIFF OMITTED] 29509.006

[GRAPHIC] [TIFF OMITTED] 29509.007

[GRAPHIC] [TIFF OMITTED] 29509.008

[GRAPHIC] [TIFF OMITTED] 29509.009

[GRAPHIC] [TIFF OMITTED] 29509.010

[GRAPHIC] [TIFF OMITTED] 29509.011

[GRAPHIC] [TIFF OMITTED] 29509.012

[GRAPHIC] [TIFF OMITTED] 29509.013

[GRAPHIC] [TIFF OMITTED] 29509.014

[GRAPHIC] [TIFF OMITTED] 29509.015

[GRAPHIC] [TIFF OMITTED] 29509.016

[GRAPHIC] [TIFF OMITTED] 29509.017

[GRAPHIC] [TIFF OMITTED] 29509.018

[GRAPHIC] [TIFF OMITTED] 29509.019

[GRAPHIC] [TIFF OMITTED] 29509.020

[GRAPHIC] [TIFF OMITTED] 29509.021

[GRAPHIC] [TIFF OMITTED] 29509.022

[GRAPHIC] [TIFF OMITTED] 29509.023

[GRAPHIC] [TIFF OMITTED] 29509.024

[GRAPHIC] [TIFF OMITTED] 29509.025

[GRAPHIC] [TIFF OMITTED] 29509.026

[GRAPHIC] [TIFF OMITTED] 29509.027

[GRAPHIC] [TIFF OMITTED] 29509.028

[GRAPHIC] [TIFF OMITTED] 29509.029

[GRAPHIC] [TIFF OMITTED] 29509.030

[GRAPHIC] [TIFF OMITTED] 29509.031

[GRAPHIC] [TIFF OMITTED] 29509.032

[GRAPHIC] [TIFF OMITTED] 29509.033

[GRAPHIC] [TIFF OMITTED] 29509.034

[GRAPHIC] [TIFF OMITTED] 29509.035

[GRAPHIC] [TIFF OMITTED] 29509.036

[GRAPHIC] [TIFF OMITTED] 29509.037

[GRAPHIC] [TIFF OMITTED] 29509.038

[GRAPHIC] [TIFF OMITTED] 29509.039

[GRAPHIC] [TIFF OMITTED] 29509.040

[GRAPHIC] [TIFF OMITTED] 29509.041

[GRAPHIC] [TIFF OMITTED] 29509.042

[GRAPHIC] [TIFF OMITTED] 29509.043

[GRAPHIC] [TIFF OMITTED] 29509.044

[GRAPHIC] [TIFF OMITTED] 29509.045

[GRAPHIC] [TIFF OMITTED] 29509.046

[GRAPHIC] [TIFF OMITTED] 29509.047

[GRAPHIC] [TIFF OMITTED] 29509.048

[GRAPHIC] [TIFF OMITTED] 29509.049

[GRAPHIC] [TIFF OMITTED] 29509.050

[GRAPHIC] [TIFF OMITTED] 29509.051

[GRAPHIC] [TIFF OMITTED] 29509.052

[GRAPHIC] [TIFF OMITTED] 29509.053

[GRAPHIC] [TIFF OMITTED] 29509.054

[GRAPHIC] [TIFF OMITTED] 29509.055

                                 <all>

</pre></body></html>
